NEWS RELEASE
FROM: Raymond W. Gruender
      United States Attorney
      Eastern District of Missouri
                             111 South 10th Street
                             St. Louis, Missouri 63102

    For Further Information: Call Public Affairs Officer Jan Diltz (314) 539-7719

December 1, 2003
For Immediate Release

 A CUBA, MISSOURI COMMERCIAL TRUCKING COMPANY,
    ITS OWNER AND AN EMPLOYEE ARE INDICTED ON
        DEPARTMENT OF TRANSPORTATION AND
            ENVIRONMENTAL VIOLATIONS
St. Louis, Missouri: A Cuba, Missouri commercial trucking company, its owner and an
employee were indicted earlier this afternoon on Department of Transportation and environment
violations, United States Attorney Ray Gruender announced today.

This case was investigated by the Environmental Protection Agency-Criminal Investigation
Division, the Department of Transportation, Office of Inspector General and the Federal Motor
Carrier Safety Administration. Special Assistant United States Attorney Anne E. Rauch is
handling the case for the U.S. Attorney's Office.

DAVID VOSS, 56; MERRY ROBINSON, 43, both of Cuba, Missouri; and VOSS
TRANSPORTATION, INC., located at Highway 19 and 44, Cuba, Missouri; were indicted by a
federal grand jury on multiple felony counts which include conspiracy to make false statements
to a federal governmental agency, conspiracy to make false statements and violation of the Clean
Air Act, violation of the Clean Water Act and failure to notify a federal agency of a harmful
discharge of oil.

If convicted, these defendants faces maximum penalties of five years in prison and/or a fine of
$250,000 on Counts I, II, and IV. Count III, Violation of the Clean Water Act, carries a
maximum penalty of one year in prison and/or a fine of $25,000.

According to the indictment, between April 2000 and June 2001, the above defendants directed
Voss drivers to drive in violation of federal safety regulations by exceeding the number of
driving hours permitted by federal regulation. The indictment alleges that Voss, as the owner and
Robinson, a dispatcher, conspired with others to conceal the fact that Voss Transportation drivers
were driving over legally allowed hours. It was further part of the conspiracy that they caused
drivers to conceal from regulators illegal trips dispatched by Voss and Robinson and another
dispatcher by "dropping" (not recording) illegal trips from log books or record of duty status
reports. The indictment alleges that a driver was dispatched over-hours on April 24, 2000 and
was killed in a fatal accident. Following this fatal accident, David Voss admitted that drivers
drove over-hours.

The indictment further alleges that between April and August 2000, drivers were paid for
"dropped" illegal trips with standard paychecks, even though they were not recorded in the
driver's log books presented to regulators. In August 2000, regulators discovered drivers
"dropping" loads from their log books and issued a compliance order requiring that Voss be in
compliance with and assure compliance with all regulations pertaining to motor carrier safety
and hazardous material . Instead, Robinson and Voss developed and implemented an "X" load
system whereby drivers submitted odometer readings and/or delivery tickets designated by an
"X" for excess trips/loads that were in excess of the maximum allowable number or hours.
Beginning in September 2000, after regulators discovered driver violations by reviewing pay
sheets and bills of lading, drivers were paid for "X" loads on bonus pay sheets to conceal the
discovery of illegal loads upon review of standard pay sheets. David Voss allegedly approved
bonus pay checks showing payment for illegal loads before it was submitted to payroll.

The indictment also alleges that the defendants sold conventional gasoline at two service
stations, Voss Express 103 in Pacific, Missouri and Voss Express 104 in Union, Missouri, when
they were required to sell reformulated gasoline. Reformulated gasoline is required in certain
areas in cities that are not in compliance with the Clean Air Act. Voss and dispatchers conspired
to violate federal law by directing drivers not to leave bills of lading which would show transfer
of conventional gasoline at service stations that required reformulated gasoline.

The indictment also alleges that on March 5, 2001, Defendant Voss and Voss Transportation
negligently caused the discharge of diesel fuel into waters of the United States in violation of the
Clean Water Act.

Finally, the indictment alleges that on March 4, 2001 and thereafter, Voss and Robinson failed to
notify the National Response Center about an oil spill from diesel tanks at the Voss Truck Port
into Pleasant Valley Creek, a tributary of the Meramec River.

The charges set forth in an indictment are merely accusations, and each defendant is presumed
innocent until and unless proven guilty.
